No. 19-756

IN THE

Supreme Court of tbe %bite) ikatess
LOUIS TAYLOR,
Petitioner,
v.
PIMA COUNTY, ARIZONA, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2020.

Colin Casey Hoga
Wilson-Epes Printing Co., Inc.

